<html>
<title> - NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2008 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED TENTH CONGRESS FIRST SESSION</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


                         [H.A.S.C. No. 110-33]

                                HEARING

                                   ON
 
                   NATIONAL DEFENSE AUTHORIZATION ACT 

                          FOR FISCAL YEAR 2008

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                     READINESS SUBCOMMITTEE HEARING

                                   ON

           BUDGET REQUEST ON ADEQUACY TO MEET READINESS NEEDS

                               __________

                              HEARING HELD

                             MARCH 13, 2007

                                     
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                     
  


































                         READINESS SUBCOMMITTEE

                   SOLOMON P. ORTIZ, Texas, Chairman
GENE TAYLOR, Mississippi             JO ANN DAVIS, Virginia
SILVESTRE REYES, Texas               WALTER B. JONES, North Carolina
LORETTA SANCHEZ, California          J. RANDY FORBES, Virginia
ROBERT A. BRADY, Pennsylvania        MIKE ROGERS, Alabama
JIM MARSHALL, Georgia                JOHN M. McHUGH, New York
MADELEINE Z. BORDALLO, Guam          HOWARD P. ``BUCK'' McKEON, 
MARK UDALL, Colorado                     California
DAN BOREN, Oklahoma                  ROBIN HAYES, North Carolina
NANCY BOYDA, Kansas                  FRANK A. LoBIONDO, New Jersey
CAROL SHEA-PORTER, New Hampshire     TOM COLE, Oklahoma
JOE COURTNEY, Connecticut            ROB BISHOP, Utah
DAVID LOEBSACK, Iowa                 CANDICE S. MILLER, Michigan
GABRIELLE GIFFORDS, Arizona          TRENT FRANKS, Arizona
KATHY CASTOR, Florida                CATHY McMORRIS RODGERS, Washington
               Paul Arcangeli, Professional Staff Member
                Lynn Williams, Professional Staff Member
                   Christine Roushdy, Staff Assistant







































                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2007

                                                                   Page

Hearing:

Tuesday, March 13, 2007, Fiscal Year 2008 National Defense 
  Authorization Act--Budget Request on Adequacy to Meet Readiness 
  Needs..........................................................     1

Appendix:

Tuesday, March 13, 2007..........................................    31
                              ----------                              

                        TUESDAY, MARCH 13, 2007
FISCAL YEAR 2008 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST ON 
                    ADEQUACY TO MEET READINESS NEEDS
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Ortiz, Hon. Solomon P., a Representative from Texas, Chairman, 
  Readiness Subcommittee.........................................     1
Rogers, Hon. Mike, a Representative from Alabama, Readiness 
  Subcommittee...................................................     3

                               WITNESSES

Cody, Gen. Richard A., Vice Chief of Staff, U.S. Army............     4
Corley, Gen. John D.W., Vice Chief of Staff, U.S. Air Force......     9
Magnus, Gen. Robert, Assistant Commandant, U.S. Marine Corps.....     7
Willard Adm. Robert F., Vice Chief of Naval Operations, U.S. Navy     5

                                APPENDIX

Prepared Statements:

    Cody, Gen. Richard A.........................................    35
    Corley, Gen. John D.W........................................    71
    Magnus, Gen. Robert..........................................    80
    Willard, Adm. Robert F.......................................    41

Documents Submitted for the Record:
    [There were no Documents submitted.]

Questions and Answers Submitted for the Record:

    Mr. Taylor...................................................   103
FISCAL YEAR 2008 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST ON 
                    ADEQUACY TO MEET READINESS NEEDS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                                    Readiness Subcommittee,
                           Washington, DC, Tuesday, March 13, 2007.
    The subcommittee met, pursuant to call, at 2:05 p.m., in 
room 2118, Rayburn House Office Building, Hon. Solomon Ortiz 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. SOLOMON P. ORTIZ, A REPRESENTATIVE 
          FROM TEXAS, CHAIRMAN, READINESS SUBCOMMITTEE

    Mr. Ortiz. I think that we have a sufficient number of 
members, and I think that more will come in as we progress with 
this hearing.
    I thank our distinguished panel of witnesses for appearing 
before this subcommittee today. We honor and appreciate the 
sacrifices made by our soldiers, sailors, airmen and Marines, 
who serve throughout the world in support of our nation and in 
Operation Enduring Freedom (OEF) and Iraqi Freedom (OIF).
    Today, the Readiness Subcommittee will consider the 
readiness posture of our armed forces and whether the fiscal 
year 2008 budget, if this request is adequate to meet the 
readiness needs.
    After 5-1/2 years of sustained operations in two theaters 
of war, I am greatly concerned about the declining readiness 
condition of the services in terms of personnel, equipment and 
training. This growing readiness problem is most evident in the 
ground forces of the Army and Marines, but we also see it in 
the effects on the Air Force and the Navy.
    The Congress has provided significant funding beyond what 
has been requested by the Department of Defense to try to 
mitigate the decline, but the high tempo of operations and the 
constraints of the defense industrial base are making it 
difficult for the service to turn the decline around.
    By far, the Army has been the service most affected by the 
global war on terror and the war in Iraq. The Army's planned 
commitment of 21 of its 42 brigade combat teams to combat 
operations is stressing both soldiers and equipment and 
reducing the readiness posture of units not deployed to combat.
    To meet wartime needs, the Army has pulled equipment from 
across the forces to equip soldiers deploying into harm's way. 
This practice, as General Cody notes in his written testimony, 
increases risk for the next-to-deploy units and limits the 
Army's ability to respond to emerging strategic threats.
    I have seen the classified Army readiness reports. And 
based on those reports, I believe that we as a nation are at 
risk of mission failure, should our Army be called to deploy to 
an emerging threat.
    Because of time and equipment and strength, commanders are 
being forced to seek efficiencies in completing required pre-
deployment training. Rotations at the National Training Center 
for the last two brigade combat teams headed to Iraq were 
eliminated, with the units conducting home-stationed training 
in Washington and Georgia, instead of in the desert at Fort 
Irwin, California.
    The Marine Corps, like the Army, has seen significant 
ground combat since the year 2001. This is reflected in lower 
readiness rates for non-deployed units. The problems in the 
Marine Corps are not as severe as the Army, but they are 
affecting training and overall readiness posture of the 
service.
    The Navy's fiscal year 2008 budget supports 45 underway or 
steaming days per quarter for deployment forces, but reduces 
steaming days for non-deployment forces from 24 in fiscal year 
2007 to 22 in fiscal year 2008.
    We will be interested in hearing how confident the Navy is 
that an increased reliance upon the use of simulation exercises 
and improvements in training methods can ensure the readiness 
of the Navy's non-deployment forces.
    Likewise, we will want to hear how much non-deployed 
aircrew readiness the Navy has sacrificed to fund an average of 
T-2.5 aircrew readiness levels, as reported in fiscal year 2008 
budget request.
    The Air force is flying over 200 sorties per day in the 
central command theaters of operation, and has more than 350 
aircraft committed to supporting combat operations. This 
commitment has resulted in high utilization rates on aging Air 
Force assets. These increased use on a smaller, older fleet has 
resulted in readiness rates that are 17 percent below unit 
operation readiness rates prior to 9/11, and below last year's 
all-around low levels.
    I have noted in General Cody's written testimony his 
comment that addressing readiness will require a national 
commitment to sustained, predictable resourcing.
    I agree with this comment, but will go on to say that we 
need a national commitment to our military and to providing for 
our national defense.
    Our armed forces have done what has been asked of them over 
the last 5-1/2 years, and it has taken a heavy toll. Readiness 
has fallen now, and the American people must look forward to 
the future and the future work to restore our military, so that 
armed forces are ready when we need them.
    Gentlemen, I look forward to hearing your testimony.
    The chair recognizes the distinguished gentleman from 
Alabama, my good friend, Mr. Rogers, who is filling in for my 
good friend, Ms. Davis, who has been a little ill.
    Mr. Rogers.

 STATEMENT OF HON. MIKE ROGERS, A REPRESENTATIVE FROM ALABAMA, 
                     READINESS SUBCOMMITTEE

    Mr. Rogers. Thank you, Mr. Chairman.
    I want to welcome all the witness. And thank you each for 
taking the time to be with us to talk about this important 
issue today.
    As we all know, the readiness of our troops is critical to 
our national security and success in the war on terror. The 
Department of Defense continues to face budgetary pressures 
against the backdrop of the ongoing war on terror, a continued 
high operations tempo, and the need to recapitalize much of its 
aging equipment.
    The fiscal year 2008 budget reflects these challenges and 
requires the services to continue to do more with less.
    The total request of $235.3 billion for operations and 
maintenance is up only 1.1 percent than the fiscal year 2007 
request. According to the estimates provided to this 
subcommittee, this increase is only half of what is needed to 
cover inflation, rising energy costs, and provides no room for 
program growth.
    In effect, the services' Operation & Maintenance (O&M) 
budgets are $2.7 billion short if you simply take inflation 
into account.
    The readiness challenges facing the Department of Defense 
are significant. Years of underfunded procurement amounts are 
manifesting in its aging fleets, aircraft, ships and vehicles. 
This aging equipment is costly to maintain, it offers reduced 
reliability, and requires increased manpower to keep it 
serviceable.
    Yet, the high mission capable rates and mission 
effectiveness ratings are a direct result of the hardworking 
dedicated men and women serving this nation.
    In my home state of Alabama, for example, we see this 
dedication and the talented workforce at critical installations 
like the Anniston Army depot. Their motivation and pride is to 
provide our military personnel the best-maintained, most 
reliable equipment they can.
    Of course, each of the services are tackling these 
challenges in different ways, from the Air Force's Smart Op 21 
to the Navy's Fleet Response Plan, our military personnel are 
looking for ways to do things smarter, cheaper and better.
    I look forward to hearing from each of our witnesses today 
on the readiness challenges and hope to hear more about the 
tools they need to get the job done for our nation.
    And, again, I want to thank you for being with us.
    And thank you, Mr. Chairman, for the time.
    Mr. Ortiz. We are going to start our testimony. We have 
outstanding witnesses with us today.
    And, my friends, thank you for joining us.
    Now, we have three votes. We have one 15-minute vote and 
two 5-minute votes. So it will take us about 25, 30 minutes to 
come back.
    But we will start with General Cody, with your testimony.
    And I can assure you that all your entire testimony will be 
submitted for the record.
    General Cody.

 STATEMENT OF GEN. RICHARD A. CODY, VICE CHIEF OF STAFF, U.S. 
                              ARMY

    General Cody. Thank you, Mr. Chairman, and distinguished 
members of the committee. On behalf of the nearly 1 million 
soldiers that comprise this all-volunteer Army, 248,000 of whom 
are forward deployed throughout the world, thanks for the 
opportunity to discuss Army readiness and the need to improve 
the strategic depth of our force.
    Today's deployed soldiers are the best-trained, best-
equipped and best-led we have ever sent into combat. However, 
after five years of combat, we have done this at the expense of 
our non-deployed forces. And we are stretched thin.
    To sustain the readiness of our deployed forces and to 
begin restoring the strategic depth of our Army, we require 
congressional support in five key areas.
    First, recent decisions to expand the Army reflect the 
clear recognition of the dangers facing America and the strain 
that five years of sustained combat have placed on this all-
volunteer force.
    Providing the sustained, predictable resourcing required to 
grow our force in a balanced, coordinated fashion while 
providing adequately for the needs of the all-volunteer 
soldiers and their families requires a national commitment.
    Second, last year, Congress provided the resources needed 
to secure battle losses and repair our worn-out equipment, and 
we are ahead of schedule in executing these funds.
    To sustain this effort, we will require $13.5 billion in 
fiscal year 2008 and corresponding levels of funding for at 
least 2 to 3 years beyond the duration of this current 
conflict; and the ability to begin executing these executed 
funds upon enactment, so that we don't break down the momentum 
we have right now in our five depots.
    Third, we require a significant sustained investment to 
both overcome the $56 billion of equipment shortfalls which we 
entered this war in and to modernize.
    We must aggressively buy back the equipment shortages to 
restore the strategic depth of the Army: active, guard and 
reserve. We must also remain committed to investing in 
technologies and equipment that enable our most important 
asset, the American soldier, to remain ahead of all our 
adversaries.
    Fourth, our ability to grow the force and to meet 
rotational requirements is jeopardized by the $2 billion 
reduction in BRAC due in fiscal year 2007.
    We urge the Congress to restore the BRAC funding for fiscal 
year 2007 and to fully fund BRAC and the military construction 
request for fiscal year 2008.
    My fear is, if we don't get this, we will have soldiers 
show up at post camps and stations without the proper military 
construction, without the proper barracks and without the 
proper quality of life that they deserve.
    Fifth, we require receipt of additional fiscal year 2007 
supplemental funding by April. If delayed beyond April, the 
Army will be forced to reprogram in order to sustain operation 
and maintenance accounts that fund key warfighting requirements 
in the operational area. We cannot afford to repeat last year's 
late-to-need cash flow experience and meet the increased 
operational demands we now face.
    With Congress's support in these five areas, we will be 
able to sustain the readiness of our deployed forces and begin 
to build and restore the strategic depth of America's Army. We 
are be able to ensure that our soldiers have the resources 
necessary to prevail against the enemy today and tomorrow. We 
will be able to provide a quality of life for our soldiers and 
families that is equal to their quality of service of this all-
volunteer force. The young men and women who have raised their 
right hands to defend this great nation deserve nothing less.
    I look forward to your questions.
    [The prepared statement of General Cody can be found in the 
Appendix on page 35.]
    Mr. Ortiz. Thank you so much, General.
    I would like to inquire to see how much time we have before 
the first vote. I understand that we have about 5 minutes. We 
are going to recess for about 20, 25 minutes because we do have 
three votes. And then as soon as we come back we will resume 
the testimony.
    So take a little break. Thank you.
    [Recess.]
    Mr. Ortiz. We are going to continue with our hearing. And I 
thank you for your patience. We had three votes there.
    But, Admiral, if you are ready, we can go ahead and hear 
your testimony, sir.

   STATEMENT OF ADM. ROBERT F. WILLARD, VICE CHIEF OF NAVAL 
                     OPERATIONS, U.S. NAVY

    Admiral Willard. Thank you, Chairman Ortiz, Congressman 
Rogers and distinguished members of the subcommittee. Good 
afternoon. And thank you for this opportunity to testify on the 
readiness of our Navy.
    Your Navy is combat-ready and engaged around the clock in 
defense of our nation. This committee's dedicated support of 
our men and women in uniform remains critical to their success.
    Today, more than 60,000 sailors, as well as nearly 100 of 
our ships and submarines in your fleet are deployed, providing 
the reach, precision and persistence to fight and win our 
nation's wars.
    While many of our sailors are actively fighting the war on 
terror, others are contributing through enduring maritime 
missions as an element of what has become our nation's 
strategic reserve.
    The recently deployed John C. Stennis Strike Group is an 
example of the fleet response plan, providing flexible and 
sustained forces supporting maritime security and deterrence 
operations in the Persian Gulf.
    While Navy doctors, nurses and corpsmen risk their lives 
daily to save others, our explosive ordnance disposal teams and 
electronic warfare personnel are doing the same to locate and 
disarm improvised explosive devices.
    Navy security personnel guard detention facilities while 
Navy special force special warfare personnel disrupt terrorist 
leadership worldwide.
    One half of your deployed sailors are in the Central 
Command area of responsibility, and almost one half of them are 
employed in ground combat or combat support roles; most under 
the Navy Expeditionary Combat Command.
    This support is anticipated to grow.
    We are rebuilding in Afghanistan, chasing pirates off of 
the Horn of Africa, flying ground support missions and 
conducting land-based air and submarine surveillance and 
reconnaissance patrols.
    The care and welfare of our returning wounded sailors, 
Marines, soldiers and airmen are of utmost importance to the 
Navy and Navy medicine. We continually strive to provide the 
highest-quality medical care in safe, clean and nurturing 
environments for all our patients.
    The Navy has begun a focused review of the living and 
operating conditions in our medical facilities to ensure that 
we are meeting all of the health care needs of our sailors and 
of their families.
    Our equipment, platforms and people are showing the effects 
of these sustained operations in the war on terror, and I am 
concerned about several communities' ability to maintain this 
degree of operational tempo.
    I am proud of the Navy's efforts in this long war, and so 
are our sailors. The fiscal year 2008 budget fully supports our 
near- and long-term warfighting requirements and reflects our 
top priorities: sustaining combat readiness, building the 
future fleet, and developing our future leaders.
    Operations and maintenance funding supports our increased 
flying and steaming hours, as well as medical support and 
reserve force activation. Depot maintenance and procurement 
funds will help impede the wear and tear of our older 
expeditionary aircraft, particularly the F-18 Hornet, Charlie 
and Delta models. These aircraft are experiencing flight hours 
30 percent greater than originally planned.
    Our P-3, EP-3 and EA-6B Prowlers are all at or well beyond 
their expected service life. Your funding will help support 
completion of critical maintenance to keep them safely flying 
until the EA-18 Growler enters the fight.
    The Navy's ship maintenance budget ensures all four public 
shipyards are mission funded and supports the fleet response 
plan by allowing fleet commanders to control maintenance 
priorities. Procurement funds will support our Seabees, whose 
equipment has not proved to be as durable as they are. Our 
request will purchase the heavy construction gear and mine-
resistant, ambush-protected vehicles needed to support these 
forces.
    Basic allowance for housing is one of the primary issues 
for our sailors, specifically the existing gap between funding 
levels and local housing costs. Continued support from Congress 
is needed to provide some relief for this gap and improve 
family readiness.
    I would like to thank you, Mr. Chairman, and the committee 
for your continued support of our sailors and their families 
during this critical and dangerous time in our history. I look 
forward to your questions.
    [The prepared statement of Admiral Willard can be found in 
the Appendix on page 41.]
    Mr. Ortiz. Thank you, sir.
    General Magnus.

  STATEMENT OF GEN. ROBERT MAGNUS, ASSISTANT COMMANDANT, U.S. 
                          MARINE CORPS

    General Magnus. Chairman Ortiz, Congressman McKeon, and 
distinguished members of the subcommittee, thank you for this 
opportunity to report to you today.
    I would like to express my appreciation for the steadfast 
and continuing support that you provide to your Marine Corps.
    I request that my written statement be accepted for the 
record, and I would like to highlight three points from that 
statement for you.
    First, I will report to you on the readiness of our most 
precious resource: your Marines and sailors. I assure you, our 
units are receiving the most comprehensive mission-focused 
training available. Every Marine and sailor deploying to OIF or 
OEF, regardless if they are active or reserve, an individual 
augmentee or in a unit, or part of a training team, complete 
the tailored five-phase training program culminating for units 
with the Mojave Viper exercise at Twentynine Palms in 
California, or the Desert Talon exercise at Yuma, Arizona.
    Your Marine Corps supports Marines, sailors and families 
throughout the deployment cycle. Our combat and operational 
stress control program trains and educates Marines and sailors 
and their family members to prevent, identify and treat stress 
injuries.
    We are also implementing the occupational stress control 
and readiness program, which embeds medical health providers 
with ground forces to provide early identification and 
treatment to defeat the stigma of combat stress and to overcome 
barriers to care.
    Your Marine Corps continues to strengthen communications 
between the unit and the families in order to improve the flow 
and comprehension of information throughout a deployment cycle. 
We find time and again that our key volunteer network is the 
crucial link to unit flexibility and information dissemination 
to families. These selfless volunteers provide the glue among 
families awaiting the return of their loved ones.
    We pride ourselves that Marines take care of Marines. In 
addition to supporting and protecting our deployed troops, care 
for our wounded and fallen warriors has our highest priority. 
We have liaisons called patient administration teams, assigned 
to the major medical treatment centers at Landstuhl, Germany, 
and throughout this country.
    These Marines assist our wounded warriors and their 
families through their inpatient and outpatient care. They 
assist care managers in scheduling appointments and provide 
transportation support. These teams also interface with the 
local Veterans Affairs medical facilities to assist in the 
transition of wounded servicemembers to the Veterans Affairs 
system.
    To further improve the care of Marine, the commandant 
directed the redesigning of the Marine for Life injured support 
program to form a wounded warrior regiment, with a battalion on 
each coast. The primary focus of this regiment is the 
centralized oversight and care of our wounded warriors and 
sailors. This regiment will proactively facilitate the 
integration of care and support by military treatment 
facilities, Department of Veterans Affairs medical centers, 
civilian facilities, and assistance from charitable 
organizations.
    The battalions will give wounded Marines a place at home 
among their fellow warriors under the watchful eye of hands-on 
leaders, knowing that they remain valued members of our force 
while they receive the medical treatment they deserve.
    Second, I would like to comment on our equipment readiness. 
Extended combat operations have severely tested our material. 
While a vast majority of our equipment has passed the test of 
combat operations, it has been subjected to a sustained usage 
rate far exceeding planning factors. This results from 
increased vehicle mileage and flight hours and the harsh 
environmental conditions.
    Your Marine Corps continues to evolve equipment and 
tactics, techniques and procedures for our troops to respond to 
and defeat an extremely adaptive enemy.
    We are continuing to field new generations of personal 
protective equipment, such as the modular tactical vest, 
occipital pads for light-weight helmets and flame-retardant 
operational gear to protect the individual Marine and soldier.
    We are at the forefront of procuring mine-resistant, 
ambush-protected vehicles which have proven on the roadways of 
Iraq to be up to 400 percent more effective than the uparmored 
Humvees in reducing injuries or deaths.
    We believe that our requirement for 3,700 of these vehicles 
can be fielded by the end of fiscal 2008 with sufficient 
resources.
    We are combating the threats to our rotary-wing aircraft 
through a combination of tactics, techniques and procedures, 
and upgrading aircraft survivability.
    While these immediate steps should improve aircraft 
survivability, funding to accelerate development of next-
generation helicopter survivability equipment is essential to 
counter emerging threats.
    Third, I would like to comment on Marine Corps future 
readiness. With your assistance, we are increasing our end-
strength to 202,000 Marines. This increase will go a long ways 
toward reducing the strain on the individual Marine, their 
families, their units.
    Our plan will gradually decrease the deployment to dwell 
ratio of our high operational tempo units, and it will also, 
more importantly for the long term, give them the time at home 
to train for the uncertain operational environments of the 
future, including full spectrum warfighting.
    The Congress has responded rapidly and generously to our 
requests for equipment and increased protection for our troops. 
We also need the Congress's support to reset the force and 
continue modernization.
    You have always been ready to serve us, and your Marines 
have always been ready to serve in any clime and place. Your 
continued support remains appreciated. I look forward to your 
questions.
    [The prepared statement of General Magnus can be found in 
the Appendix on page 80.]
    Mr. Ortiz. Thank you so much. We certainly appreciate your 
testimony.
    I think that all of you have been very candid with your 
testimony, and I know that the committee has lots of questions.
    And we have my good friend. Go ahead, General. I was going 
to leave you out. I couldn't see too well with your blue 
uniform there.

 STATEMENT OF GEN. JOHN D.W. CORLEY, VICE CHIEF OF STAFF, U.S. 
                           AIR FORCE

    General Corley. Thanks very much, Chairman Ortiz. It is 
always great to see you, sir. And to you, as well as the 
distinguished committee members, thank you for the opportunity 
to speak about the readiness of your Air Force.
    We continue to appreciate all that you have done for our 
Air Force. And on behalf of Secretary of the Air Force Mike 
Wynne and the Chief of Staff T. Michael Moseley, but more 
importantly the men and women of the Air Force that are helping 
to fight this nation's wars and defending its freedoms 
overseas, thank you.
    And let me express the gratitude continued to you and your 
guidance of this committee.
    Look, we are a nation at war. And your Air Force is fully 
engaged in the war on terror. We are providing global 
vigilance, global reach, global power not just for the Air 
Force, but for the entire joint team. And we have been doing 
that for 16 years since Operation Desert Storm.
    In those 16 years, they have not passed without a price, a 
price that has been paid in high operations tempo of our airmen 
and excessive wear and tear on our equipment.
    We can expect to be engaged in this conflict and others for 
the foreseeable future, perhaps another decade or more. And we 
see no end to either the high operations tempo for our airmen 
or the aging and the deteriorating of our air and space 
inventories.
    We are currently meeting our wartime requirements, but our 
future dominance is at risk.
    In meeting our nation's tasking, we have flown nearly half 
a million sorties in the Central Command region alone since 
this nation was attacked on 9/11.
    But let me explain what that means and what your airmen are 
doing every day with those half-million sorties. Today, those 
nearly 26,000 airmen just in the Central Command region alone 
are deployed at over 16 major bases. They are flying over 300 
aircraft out of 10 major bases.
    Every day they are flying, if you will, the fuel for that 
fight, in terms of food and ammunition to locations across that 
expanse, and they are flying out our nation's most precious 
resource, our wounded sons and daughters. They are medevac'ing 
them back to the United States often in less than 72 hours.
    Your airmen fly and maintain the aircraft that are 
delivering iron and steel against the terrorists. They are 
conducting combat search and rescue missions. They are 
conducting command and control, intelligence, surveillance and 
reconnaissance, electronic warfare, strategic and tactical 
airlift and the refueling missions for our joint and coalition 
team.
    And they are operating and maintaining a satellite 
constellation that we all often take for granted.
    That is just the tip of the iceberg, Chairman. It is what 
your Air Force is doing around the world every day. Your airmen 
are providing strategic deterrence with Intercontinental 
Ballistic Missile (ICBM) fields that cover a combined landmass 
the size of Pennsylvania. They are guarding the homeland today 
with over 100 fighters and tanker and Airborne Warning & 
Control System (AWACS) aircraft on alert. And your airmen are 
filling over 5,000 in lieu of taskings, trying to help relieve 
some of the stress on our Army and Marine Corps. And we are 
doing that in uncharted territory today.
    Our aircraft and our spacecraft inventories have never been 
this old. Our C-130's are just one example of the aircraft that 
are stressed. These assets are doing great work on intra-
theater airlift, both in Iraq and Afghanistan. They are getting 
hundreds of convoys off the roads, and, better, they are 
getting thousands of our other forces off the roads and not 
exposed to improved explosive devices.
    But that comes at a cost: Last year, alone, our C-130 
fleets overflew their programmed hours by nearly 24,000 hours. 
Some of our C-130Es can no longer deploy to combat because we 
have literally flown the wings off of them. Center wing boxes 
are cracked.
    In fact, we have five C-130's at Ramstein Air Base alone 
with major structural issues. One is so hard-broken that it 
hasn't flown in four years. The other four have cracked center 
wing boxes, so they can only carry the crew--no cargo, just the 
crew. That kind of negates the idea of having airlift aircraft 
in the first place.
    I could tell similar stories of our tanker fleets. Tankers 
remain the single point of failure for the air bridge, the 
single point of failure for global intelligence surveillance 
and Intelligence, Surveillance, and Reconnaissance (ISR), the 
single point of failure for global strike.
    This is not just an Air Force issue. It is a joint and 
coalition force issue.
    Tankers are crucial to the deployment and the employment of 
the joint and coalition combat power, and are crucial to rapid 
response to combat and humanitarian operations around the 
globe. Yet, our tanker aircraft are the oldest aircraft in our 
inventory and continue to show severe signs of fatigue and 
stress.
    They are venerable airplanes, the KC-135. But some have 
turned 50 years old, with an average for the fleet over 45 
years of age, often older than the crews that are flying them. 
And the cost to operate and maintain these older airframes is 
growing rapidly.
    But it is not just the dollar figure we are concerned 
about; it is the lives of the airmen who are doing the mission 
every day, day-in and day-out.
    Your Air Force is engaged in this fight not just in Iraq 
and Afghanistan, but globally engaged in the fight. But we are 
strained, and readiness is at risk.
    Your airmen are the nation's strategic edge. They are 
expeditionary. They are highly trained warriors. And with your 
continued help, sir, as the Congress has helped, we will 
provide them with the necessary training, the necessary 
equipment, and the quality of life to keep our great nation's 
asymmetric advantage in global vigilance, reach and power.
    We request your continued help on recapitalization and 
modernization of this aging airspace and equipment inventories. 
We want them ready not just for today's fight, but the future 
one.
    I look forward to your questions, sir.
    [The prepared statement of General Corley can be found in 
the Appendix on page 71.]
    Mr. Ortiz. General, thank you so much.
    As I stated before, that you all have been very candid. And 
the only way we, as Members of the Congress, can alleviate and 
help you with the conditions that we are in now is for you to 
tell us how we can help you.
    I am going to ask a question for each one of you, and maybe 
you can respond. And this is, what is the readiness of our 
deployed and nondeployed forces to support ongoing operations? 
And what are some of the key challenges you face in giving them 
the equipment that they need, training and otherwise preparing 
forces in the light of the demands of ongoing operations, as 
well as the need to maintain readiness to perform other 
missions?
    And I know that we are talking about a surge. The first 
brigade left and there is another one going. And now the 
President has called for at least 8,000 more troops now.
    Where are we at, as far as the readiness, those that are 
there, those that will be deploying, equipment-wise? And maybe 
you can, you know, tell us a little more as to what we need to 
do to help you.
    General Cody.
    General Cody. Thank you, sir.
    As I said in my opening statement, in my statement for the 
record, the readiness of the brigade combat teams and the 
battalions and other teams that we have in Iraq and 
Afghanistan, to include the two brigades that just moved in for 
the plus-up, is the highest that we have seen, in terms of in 
the last four years, amount of uparmored Humvees with FRAG Kit 
5s, the density of night-vision devices, the density of crew-
jamming systems, the density of all the force protection for 
our soldiers in Afghanistan and Iraq is the highest.
    And thanks to the Congress here for giving us that money.
    That being said, the readiness continues to decline of our 
next-to-deploy forces. We have a large amount of equipment that 
is in Iraq and Afghanistan. We briefed this committee and 
others a few days ago as to the status of our Army 
prepositioned stock.
    And that is bothersome. And we can discuss more, I guess, 
when you have the other classified briefings.
    We do have shortages with the non-deployed forces. And 
those forces, by the way, are the next to deploy. And they are 
also your strategic reserve. And there are shortages in the 
light tactical vehicles, medium tactical vehicles, heavy 
tactical vehicles; some sport shortages in weapons, shortages 
in radios, and shortages in night vision devices that we have 
had to flow to the force forward.
    That is on the active side; the 16 to 18 brigades we have 
back right now that are getting ready to deploy.
    For the national guard, those shortages are even more. And, 
as you know, in the next five years we have about $30 billion 
to buy back the equipment shortages for the Army National 
Guard, and about $10 billion to buy back readiness for the 
United States Army Reserves.
    The last thing I will say is, when you talk about readiness 
and training--we are training our forces right now because of 
the dwell time and because of the demand for 21-plus brigades 
in combat right now on your Army--the dwell time for them to 
reset, retrain, get new equipment, and then turn around and go 
into a collective training event, and then deploy, is 12 
months.
    And in that 12 months, we are only able to train them to 
collective events for counterinsurgency operations.
    And right now we have the best counterinsurgency Army on 
the planet. But they are not trained to full-spectrum 
operations.
    And I think in this setting, that is about as much as I 
want to say. But that is right now the state of readiness of 
your Army.
    Mr. Ortiz. Thank you.
    And let me ask this question before we go to the admiral 
and the other generals.
    But we have a surge of 21,000 troops, and then there is the 
possibility of 8,000 more support troops or more. And we know 
we are lacking in equipment. How is that going to impact on 
those that will be gone, if we know that it takes anywhere from 
12 months to maybe 2 years to get this equipment?
    Can you elaborate a little bit on that?
    General Cody. Right now you are talking about the 
additional combat support and combat service support to provide 
the sustainment for the five brigade combat team plus-ups, as 
well as the plus-ups of Marines that are going into the Al 
Anbar. Because we do provide a certain amount of combat service 
support for our Marine brothers.
    We have the equipment right now to be able to do that, but 
we did it by taking it out of our Army prepositioned stocks, so 
that the additional forces we put over there will have that.
    The stress on the force for that is that the next-up units 
will be shorted some equipment and just-in-time flow of 
equipment before they go to their major training exercise 
before they get ready to deploy.
    Last year alone we moved over 9,600 rolling stock all over 
the continental United States to get it to the right training 
venue for the units just in time for their deployment. And then 
of course once they deploy they are falling in on full-up 
equipment over in either Iraq or Afghanistan.
    So it is a major problem for us. We need to continue to get 
the right procurement dollars and get it timely, in a fashion 
so that we can continue to buy equipment to buy ourselves back 
that strategic readiness we need.
    Mr. Ortiz. Thank you.
    Admiral Willard, would you like to add anything to what has 
been said?
    Admiral Willard. I would. Thank you, Chairman.
    The deployed readiness of the Navy is well served by the 
budget that is currently being discussed. Our forces deployed, 
and as I mentioned, about 100 ships, about 60,000 or so sailors 
across our Navy, is executing a fleet response plan at 6-plus-
1.
    This means that of our carrier strike groups, six are 
capable of deploying in about 30 days and one additional in 
about 90 days, which we use as a frame of reference for the 
current readiness of the force, our ability to surge in support 
of major combat operations or major contingencies. And we are 
funded to that extent.
    Our ships typically sail at a readiness level of C-2 or 
better. Our air wings, of which we have 10, are also captured 
in the fleet response plan figure. So when a carrier strike 
group deploys, obviously its striking arm, the carrier air 
wing, deploys as well. And we are funded currently to a 
readiness level of 2.5. Again, reflective of that C-2 goal that 
Navy has set.
    The 2008 budget currently reflects improved readiness 
across both our deployed forces as well as our forces left 
behind, including the fleet replacement squadrons, where they 
are slightly plussed up in their readiness accounts as well.
    So I think in terms of deployed readiness we are in great 
shape. We have concerns about some of the communities that are 
deployed and have very stressed dwell times in support of the 
operations currently ongoing in Iraq and Afghanistan.
    Specifically, those are our Seabees, our explosive ordnance 
disposal units, as well as our corpsmen.
    So we have, again, those select communities that we 
micromanage now.
    Now, our concern is their dwell time. Both the 2007 
emergency supplemental request and the 2008 and the global war 
on terror (GWOT) request contain within them the equipment that 
these more highly stressed communities require to maintain that 
pace of operations.
    In addition to a plus-up in force size, specifically in our 
Navy construction battalions within the Seabees.
    So we watch these closely. We will continue to watch them 
closely. And we appreciate your support, in this budget and in 
these supplementals, to keep them well-equipped.
    One point that I would like to make is that our health 
care, Navy health care budget reduction, has stressed our 
ability to provide health care generally here in CONUS.
    In order to meet those budgetary constraints, we will have 
to scale back some services that are provided across Navy to 
both our active and reserve sailors and their families.
    And I think the end result of that will be additional 
health care will be pushed into the private sector.
    So we are dealing with that issue now, studying the best 
ways and means to adjust the current health care provisions in 
order to meet those budgetary constraints.
    But in terms of deployed readiness and the readiness of 
your forces, across the board, Navy is in good shape.
    Mr. Ortiz. Thank you.
    General Magnus, would you like to add?
    General Magnus. Yes, thank you, Mr. Chairman.
    Along with my fellow warriors, the vice chief of staff of 
the Army and the vice chief of naval operations, I agree that 
the Marines that are forward deployed or those preparing to 
forward deploy, they are in the highest state of readiness.
    And, in fact, even with the plus-up of forces, we will not 
deploy Marines forward unless they have the training to the 
mission and the equipment for the mission. And, in many cases, 
the equipment for that mission is specific to Iraq and 
Afghanistan and is moved forward there.
    Having said that, you are correct, Mr. Chairman; there are 
several challenges. The Congress has provided us tremendous 
support over the last several years with nearly $10.2 billion 
between the 2006 budget, the 2007 Title IX and the 2007 request 
that is before you.
    But, as you know, there is lead time away to procure new 
equipment, military construction and the other assets that are 
going to be needed. Those will not deliver for months, if not 
years. And we are in the middle of a war.
    That said, the Marines are deploying ready, and the plus-up 
forces, of which the Marines are part, and the additional 
forces that are being outlined for Afghanistan, they will go to 
war ready. And they will be well taken care of while they are 
there and they will be well taken care of when they are back.
    The supply readiness is actually increasing. Of course, our 
equipment densities are increasing and we are growing the 
force, particularly the Army and the Marine Corps.
    In the near term, those are presenting added challenges, as 
we have to add more troops, more units while we are also trying 
to grow more troops and units back here.
    We see that the funding that has been provided will be 
delivering within the next two or three years. But, of course, 
we will continue to fight the war that we have and we are 
fighting them with the finest troops that the mothers and 
fathers of America could have possibly given us.
    The challenges about growing the force, to me, my principal 
concern is not in the request and the supplementals that the 
Congress has responded to so favorably over the last several 
years, it is to ensure that the baseline budgets now and in the 
future are going to be adequate not only to support the 
manpower costs, including health care, as the Vice Chief Naval 
Officer (VCNO) mentioned, for our troops, but also to support 
adequate military construction for barracks, for armories, for 
aircraft hangars; and to buy the ground combat vehicles and the 
aircraft that are going to have to not only replace the ones 
that we are losing, but to modernize this force because, make 
no mistake, we are all coldly aware that we are in a long war.
    That said, the Marines are ready today and we will be ready 
in the future.
    Mr. Ortiz. Thank you, sir.
    General Corley.
    General Corley. Thanks, sir.
    We have got to be able to fight tonight, and we still have 
to be prepared for the future fight.
    Your airmen are all about the mission. To be able to do the 
mission, your airmen need the tools to accomplish that mission.
    As I look at one metric of measuring the readiness of those 
tools, there is a disturbing trend. Since 2001, the readiness, 
by that metric, is down about 20 percent.
    Let me give you a further peel back on that onion.
    We have got about 1,300 fewer airplanes, but we are flying 
them at the same rate we were 13 years ago; 1,300 fewer 
airplanes and flying them at the same rate we were 13 years 
ago. An aging fleet, 13 years older, 1,300 fewer of them.
    So if we think about what is the impact in terms of our 
airmen and do they have the tools to be able to accomplish the 
mission, you ask a question: How do we help?
    My plea to you and to the rest of the members would be your 
continued help on recapitalization of this old, this very old 
fleet of airplanes, so those airmen would have the tools to do 
this. It would be able to modernize this old, very old, aging 
fleet of aircraft. It would be able for the Air Force to manage 
that fleet of aircraft. That would give our airmen the tools to 
do their mission, sir.
    Mr. Ortiz. Thank you so much.
    Now I will yield to Mr. Jones for any questions that he 
might have.
    Mr. Jones. Mr. Chairman, thank you.
    And, gentlemen, I want to personally thank you. I represent 
the 3rd district of North Carolina, the home of Camp Lejeune, 
and do claim assets at Cherry Point, even though my colleague 
Mr. Butterfield claims that asset, but in Seymour Johnson Air 
Force Base.
    I want to thank you for your honesty and integrity, of 
which I am not surprised. Let me make that clear. I just hope 
that the American people--I know this is a public hearing and 
so therefore they have access--I hope they are listening very 
carefully to what you are saying, because, as I have heard many 
of you say, with all the stresses and the challenges and the 
problems, we are in good shape.
    And that is what I would expect you to say. But you have 
also articulated the problems. And the problems today are the 
war in Iraq and Afghanistan. But we know that, five and ten 
years down the road, no matter what happens in Afghanistan and 
Iraq, we have a nation known as China that has been taking our 
jobs, that you have nothing to do with.
    We lost 3 million manufacturing jobs in the last 6 years. 
We have a trade deficit with China that is astronomical. So the 
communistic government of China is building their military.
    We are the greatest and the best right now. But if this 
nation does not understand soon that this nation has got to 
replenish and fix what is soon going to be broken because of 
being worn out.
    And, Mr. Chairman, I want to thank you for this hearing 
because I will tell you, I would like to take this testimony 
from these four military heroes who represent the heroes and 
submit it for the record on the floor of the House. Because, 
too many times, the people back home that are, you know, 
drinking the Kool-Aid, they are not listening to the facts of 
what is happening.
    And I think I have listened today. I will be at the 
classified hearing tomorrow. I have heard it before.
    Just a couple of other points, and then I will--I don't 
really have the questions, because you have answered my 
questions in a very articulate way. You have said to me as a 
Member of Congress: Wake up and listen to what I am saying.
    And I am listening to you. And that is why I will continue 
to do what little bit I can to make sure that our military is 
not forgotten, not just today, in this war in Iraq and war on 
terrorism in Afghanistan, but ten years from now, if I am still 
here or someone else who replaces me.
    You mentioned family, quality of life, housing, stress. And 
I want to share, Mr. Chairman, with you, two weeks ago I was 
invited to Johnson Primary School to read a book, ``Dr. 
Seuss.'' The words in there I am not sure I pronounced 
correctly, but their teacher said, ``Don't worry about it. The 
six-year-old children won't know it.''
    But the point I want to make is, when I finished, I let the 
little children ask me questions--ten of them in the library. 
One or two said, ``My mom is in Iraq,'' ``My dad is in Iraq,'' 
and you fumble to give them some words of hope or, you know, 
just to try to make a child feel better about the possibility 
of what might happen.
    But a little kid at the end said to me--and if I don't make 
another point, I want to make this, because I want people to 
fully understand what you have said and where we are, because 
our military are the real heroes of this nation. This little 
kid said to me, ``Congressman"--no, excuse me, he did not. He 
said, ``My daddy is not dead yet.'' That is as profound as 
anything I could say--a six-year-old child.
    Too many times, not you, sirs, but too many times the 
people of this country do not understand the impact of war on 
families and children. But a six-year-old child says to me, 
``Daddy is not dead yet.'' And I looked at the teacher, and I 
just hoped God gave me the right words to give that child some 
encouragement.
    But I close because my time is up. I want, Mr. Chairman, if 
I can get it, I really would like to submit for the record--a 
lot of people read that record--what these men have said to us 
today. And I hope America is watching and listening, because 
this is a critical situation for our men and women in uniform.
    And I thank you. I am sorry I preached, but I thank you.
    Mr. Ortiz. And I agree with the gentleman. I think, as I 
stated before, this has been very candid testimony, and we need 
to share this with the American people and with the rest of the 
Members of Congress.
    Ms. Shea-Porter.
    Ms. Shea-Porter. Thank you, Mr. Chairman.
    I just wanted to reiterate what I just heard. And I was at 
the secret hearing talking about the troop readiness. And I 
tried to speak to my state about it in general, about troop 
readiness and the pressure on them. And I won a headline that 
said something along the lines of, ``Shea-Porter: Gloom and 
Doom.''
    Now I am not getting political here. What I am talking 
about is that this country needs to know exactly the state of 
the military and what you all have gone through.
    But we also need to acknowledge that for several years, we 
were told that things were going well. And so for me to come to 
Congress--I am a freshman--and start looking at these numbers 
and hearing this testimony has been astounding for me.
    I was a military spouse during the 1970's. My husband was 
in the Army, so I have a special affection for the Army.
    And I just got back from Iraq last week. And I looked and I 
saw with my own eyes. And I have to tell you, the gap between 
what Americans think is going on, and what I saw and what I 
have heard through--I think we had 63, 65 hearings, and I have 
sat in every one of them except for one--is astounding.
    And so my question to you, even though it is open-ended, 
is: How can we help to get this message out? Because all of us 
need to understand what you are telling us, and it has to get 
beyond the political realm. So what can we do to carry the 
message, and how could we best serve this country and serve all 
of you that are struggling mightily and deserve the equipment, 
the personnel deserve to be ready, and the families need to be 
supported.
    And I will start with you, General Cody.
    General Cody. Well, thank you, ma'am, for the question.
    First off, I think we need to have a national dialogue 
about, not just focused on Iraq and focused on the plus-up and 
how well things are going or not going, I think we have to have 
a dialogue about what type of military does this country need 
and want. And the needs and wants need to be the same in this 
type of environment, the strategic environment that we are in.
    When the wall came down in 1989 and then we had Desert 
Shield-Desert Storm, the military was reduced by almost 40 
percent. We spent 10 years not investing in the military, and 
then 9/11 happened. And it has taken us this long to build the 
equipment and the types of soldier protection that you seen 
when you just recently had your visit.
    And it has taken us almost 4 years in the Army to grow the 
Army by 20,000 during this war on the active side.
    It is not a issue of affordability. This is the richest 
country in the world, with a $13 trillion economy. It is really 
an issue of national priority. And I think that is where the 
dialogue needs to start, across all services, not just the 
Army.
    I believe we are in the most dangerous times. We are five 
years into this war. I think that we should not let the 
dialogue just focus on what is tactically happening in Iraq. We 
need to take a look at this whole global war on terror and 
explain to the American people what global means, what the 
nature of this war means, and what type of terrorists we are 
talking about, and what type of threats they really bring to 
this nation.
    Our soldiers understand it. That is why they have stayed 
with us, our Marines and our sailors and our airmen. This all-
volunteer force that has fought for five years is stretched, 
but they have stayed with us, because they believe the American 
people are behind them.
    But they also believe that this is something that we have 
to do.
    As one soldier told me, every fight since 9/11 needs to be 
an away game. We don't need any more home games.
    So our soldiers understand this.
    But I think that is where the national dialogue needs to 
be. And it needs to be bipartisan.
    Ms. Shea-Porter. I absolutely agree. I may have a different 
opinion from somebody else who has another opinion about, you 
know, the mission and should we be there, and whatever. But I 
do know one thing: that if we put soldiers there, we need to be 
there for them. So I think we have to have that dialogue.
    Would anybody else like to add another comment?
    I plan to go back to my papers and send as much as I am 
allowed to, as many statements as I am allowed to, to try to 
get people to see what is actually happening inside the forces.
    Admiral Willard. Ma'am, if I may, I think we as 
servicemembers bear a responsibility in getting the message 
out. And forums like this offer us that opportunity to get as 
open and frank in the questions and answers as we can be and in 
our statements, both formal and informal.
    But at the same time, there are public forums that we have 
an equal responsibility to be spokesmen at and to answer to the 
general public and to the journalists as frankly as needs be.
    I think in general we are doing that. I am not sure that 
the message is as ubiquitous across our nation as we would like 
it to be. But whether it is a formal, open dialogue with the 
Nation discussing its military and educating the general public 
or whether it is an effort on the part of the services to 
reveal to the public their mission set and their current state 
of play and condition, and their stewardship of the taxpayers' 
money, I think the dialogue must occur.
    And, once again, I think we understand and bear a 
responsibility in ensuring that that message gets out as 
accurately as possible.
    Ms. Shea-Porter. Thank you.
    I have one last question, please: If a soldier has a story 
to tell that you need to hear at your level, are they able to 
do that without any form of retribution?
    For example, if they know that the numbers are very low for 
readiness in their particular area and they don't think it is 
being reflected properly by one of their commanders, do they 
have a way to deliver that message to the top without 
retribution?
    General Cody. Yes, ma'am, they do. And I am sure there is 
probably one soldier out there in our million-man Army, our 
million-man and woman Army that probably feels that the 
readiness of their outfit, especially if they are getting ready 
to deploy, shouldn't be where it is.
    And what we have to do is make sure the leadership explains 
to them: You don't have 100 percent of this right now; you will 
have it for the training; and then you will for sure have it 
when you move to the combat zone.
    And that is a challenge that we have to make sure.
    But we expect our commanders at all levels to report 
accurately the readiness. And you saw the readiness reports 
they gave you the other day. I mean, those were stark numbers 
that you were briefed on. And they were not generated by the 
Department of the Army, they were generated by commanders in 
the field, captains, majors, lieutenant colonels and colonels 
reporting very accurately the status, because they know they 
have to report it that way because it is their men and women 
that they are going to lead in combat.
    And so I believe that the reporting is very accurate, 
honest. And I think our commanders know to tell it like it is. 
And we need to know it.
    Ms. Shea-Porter. Thank you very much.
    Mr. Ortiz. Mr. Hayes.
    Mr. Hayes. Thank you, Mr. Chairman.
    Gentlemen, let me add my thanks particularly for not only 
your service, but the men and women that you represent.
    I would correct all of you on one point. Protocol says you 
come and you thank us for being here and you thank us for all 
the things that you have done for us. Well, we haven't done 
enough. So when you come, preface it: We need more--whatever 
the case may be. I think that would be helpful. Again, as we 
carry on the dialogue with the American people, they need to 
hear that regularly.
    General Cody, I particularly appreciate your reminding 
folks of the tremendous gap in an eight- or ten-year period 
where the military was defunded. And that potential always 
exists in this atmosphere of competition for hard-earned tax 
dollars.
    There is nothing any more important than the security of 
this nation. Wars must be fought and won. There is a war 
against terrorists that is being fought as we speak by brave, 
careful, competent, and victorious men and women. And we need 
to continue to talk about that.
    So let's talk specifically on readiness, Admiral, about 
choices. Is it a better choice to have new F-18s flying onto 
the boat, or more concrete at the outlying landing field (OLF), 
places to train, where these old airplanes like F-15s are 
speed-restricted and C-130's are cargo-restrict. That might not 
be a question you want to answer here. But, again, we have got 
to use the money wisely.
    Is that something that you could care to comment?
    Admiral Willard. Unquestionably, we need the OLF, I mean, 
for the realism associated with carrier training. And Navy is 
committed to the necessary fiscal support to see that reality.
    We strike a very fine balance between our procurement 
accounts and our current readiness accounts. Navy engages in 
this in an enterprise format where we look at our current 
commitment to production of readiness for our fleet--to your 
point about OLF--and we look at our future capability; that is, 
our attempt to pace the threats around the world and also 
improve on the quality and capabilities that currently exist.
    There is always a tension there, and it is challenging to 
strike and find that correct balance. But we work very hard at 
it. And we haven't for many years now sacrificed that current 
readiness merely for the sake of that future capability, but 
rather we have tried to find the correct balance between the 
two.
    Mr. Hayes. You ought to be sitting up here. That was a good 
political answer. Give me more airplanes in the meantime. And 
the Navy has got a bunch of hurdles that they have got to 
overcome before that landing field is sited. So we will talk 
about that more.
    General Magnus.
    General Magnus. Yes, sir.
    Mr. Hayes. I have recently received some very positive 
anecdotal evidence of significant progress in the Marine sector 
in Anbar Province. I would ask you if you have anything to add 
to that today, because it is important people back home know 
that that progress is being made. This report consisted of Shia 
and Sunni cooperation between police and security forces, 
military. These things are happening again because the men and 
women are getting the job done.
    Would anyone on the panel like to add to that? Because I 
think people are anxious to know that reinforcing the troops is 
the right thing to do and it is resulting in ultimate victory.
    General Magnus. Congressman, thank you for the question.
    Clearly, detailed discussion of what is going on in Iraq or 
Afghanistan, in particular what most people think of as the 
Marine sector, but Multinational Force West is a joint sector, 
is probably most properly addressed by the combatant commander 
and his chain of command.
    But what I can tell you is that--and we have to be very 
careful about declaring optimism too soon. And I have been over 
there, came back as recently as November the 3rd. General Cody, 
my warrior mate here at the end of the table, has come back 
more recently. But there is palpable progress, and the progress 
is in what we have been able to do over the past three years 
with the Iraqi army and the Iraqi police.
    There are no mistaking fundamentally huge challenges in the 
political and economic domains. And make no mistake, there is a 
very dangerous insurgency which is in various different casts.
    But I would agree that much of what I have seen recently in 
the various print media, regardless of underlying opinions 
about the direction of the war, yes, we are seeing progress and 
the very initial phases of the plus-up appear to be adding to 
the security environment.
    Make no mistake, though, this is a long war.
    Mr. Hayes. No question.
    My time is up, Mr. Chairman.
    You all giving us information that is accurate and timely 
about that progress is very important as we report back to our 
folks at home.
    Thank you, Mr. Chairman.
    Mr. Ortiz. Ms. Bordallo.
    Mr. Taylor said that he didn't----
    Ms. Bordallo. I wish to thank Mr. Taylor publicly, for 
allotting me his time, his slot.
    Gentlemen, I want to thank you for your testimony today.
    General Magnus, thank you for sending all the Marines to 
Guam. We are waiting for them.
    General Cody, I have a question for you. I represent Guam. 
And the soldiers from the Guam National Guard have for a number 
of years now been assigned to operate on the Horn of Africa. 
Soon the third deployment of Guam soldiers are scheduled to 
return to the United States and complete their demobilization 
activities on Hawaii before returning to Guam. And this, I 
understand, may take anywhere from one to three months.
    These soldiers' family members would like to see their 
loved ones as soon as possible. They have requested that the 
Army fly them to Hawaii to be with their loved ones when they 
arrive there. But the Army has told the family members that it 
cannot support these requests. I have been contacted by a 
number of wives of these soldiers regarding why the military 
will not support their request to travel on space-available 
basis to Hawaii to be there when their husbands return from 
deployment.
    I respectfully request that you describe for the 
subcommittee the Army's policy on transporting dependents on 
space-available basis on military aircraft to demobilization 
sites to greet returning loved ones. And I also request that 
you describe for the subcommittee the nature of these 
activities that soldiers who return from deployment to Iraq, 
Afghanistan, the Horn of Africa, or elsewhere around the world 
must undergo.
    I am interested in learning of the nature of counseling, 
training, or assistance that soldiers receive on how to manage 
the challenges associated with reentering family life upon 
returning from deployments to hostile environments, and whether 
such counseling is provided during demobilization activities.
    Am I correct to believe that the effective demobilization 
of a soldier and his or her reintegration into the family and 
civilian life in the case of the guard and reserve soldiers is 
an important part of the total force readiness?
    General Cody. Thank you, ma'am, for the question.
    First, I don't think we have a policy or not. I will take 
it for the record and get back to you to answer on national 
guard family members who are on active duty and why they should 
not be able to go space-available from Guam to Hawaii.
    But I will look into that, get with the National Guard 
Bureau, and get back to you.
    The one to three months sounds a little high to me. And I 
am very familiar with the Guam soldiers. I have met two of the 
companies that were training to go over in Hawaii.
    We bring them to Hawaii because that is where the best 
training is and that is where we equip them.
    And then we bring them back to the mobilization site in 
Hawaii at Schofield Barracks and go through about a two- to 
three-week demobilization.
    And, during that time frame, we do the military health 
assessment, we do the counseling, as well as get their finances 
and everything all straightened out and then we ship them 
forward again back to Guam for the reintegration with their 
family members.
    And then there is another follow-on 90-day assessment, 
military health assessment.
    And so I will have to go back and take a look at the Guam 
situation, because it is a little different, because it is a 
company, and we are rotating in and out.
    And I will have to come back and tell you.
    I do know that the joint travel regulations--because we 
have looked at this before for Alaska and other places, about 
getting family members to and from places where we have had to 
extend soldiers--we have been restricted by the joint travel 
regs to fly people commercially, and then we have had to go out 
with our foundations and get frequent flyer miles and stuff 
like that to help the family members.
    But I don't have a good answer for you on who in the Army 
said we have a policy. I don't think we have one. And I need to 
get you a better answer.
    Ms. Bordallo. General, I think, on the time period there, 
if there should be some health problems that they find then 
perhaps the time is more. But I have heard everything from 
three weeks to three months.
    So I don't know----
    General Cody. That wouldn't surprise me, especially if a 
soldier had a medical issue, he is right there with Tripler 
Army Medical Center. And it may be a soldier choice to stay 
there and get it fixed before he goes back to Guam and before 
he demobilizes.
    So I bet you, as we run each one of these down, you will 
find that the soldier has kind of requested it because he can 
get the medical care right there. And we owe that to him.
    But I will go back and take a good look at it.
    Ms. Bordallo. Thank you, General.
    Just one quick follow-up. Could you give me any good 
reason, if there is such a policy, why the Army has told these 
families that they cannot support this request?
    General Cody. Again, I believe it is an interpretation of 
the joint travel regulation. And I have got to go back and have 
my staff look at it.
    There are ways we can do this and take care of the family 
members. There is also, though--you know, we have this in other 
places where we have soldiers deployed off of Samoa and other 
of the island chain, Alaska, and we have looked into it. And 
what we have done is gone to foundations for frequent flyer 
miles donations to be able to do it.
    What we would like to do is get the soldiers back to Guam 
as fast as we can and get them back to the family unit and 
start that reintegration.
    Ms. Bordallo. Well, I would appreciate a written response 
to this, General, if you could provide my office with that.
    Thank you.
    Thank you very much, Mr. Chairman.
    Mr. Ortiz. My friend from Mississippi, Mr. Taylor.
    Mr. Taylor. Thank you, Mr. Chairman.
    And I want to thank all of you gentlemen for your service 
to our nation, for being here.
    I have got to admit that I find it ironic that for years 
people have come before this committee, starting with Secretary 
Rumsfeld, telling us that all our defense needs were being met, 
and then, suddenly, we walk into the 2008 budget cycle and 
everyone says, ``We are broke.''
    So as a personal comment, I do believe the previous 
secretary intentionally misled this Congress as to the true 
costs of the war. I very much appreciate you gentlemen bringing 
to our attention the cost of what we need to do to fix things. 
And I will leave it at that. If you wish to comment on it, you 
are welcome to.
    What I would like, General Cody, your thoughts on is--I am 
going to start with praise, in that I think the Marines are 
taking an extremely ambitious and rightful approach toward the 
Mine Resistant Ambush Protected (MRAP) program, with a goal of 
replacing all of their vehicles in Iraq hopefully by next 
January.
    My concern is that the Army is not nearly as ambitious, 
that we are making the same mistake that we have made first 
with body armor, uparmored Humvees, jammers, and that is, 
setting a number lower than 100 percent of every vehicle as the 
requirement.
    And since I felt like our nation, in particular the troops, 
were burned on those three decisions of setting a requirement 
lower than 100 percent, why are we apparently making the same 
mistake when it comes to MRAPs?
    General Cody. First off, Mr. Congressman, as you know, the 
Army has about 18,000 uparmored Humvees. So we have a size and 
scope as well as a mission differential.
    Second, we have about a thousand tanks and Bradleys, as 
well as 700 Stryker vehicles that we have in-country. And there 
are about 600-some-odd armored security vehicles, and we are 
buying 48 a month from the vendor on the armored security 
vehicle.
    When we got our operational needs statement from theater, 
it was for 2,500. They did not ask us to replace all 18,000 
uparmored Humvees with MRAP level 1, level 2 or level 3.
    And I would also like to state that we have been buying the 
MRAP vehicle for quite some time: the Buffalo, the RG-31 and 
the Cougar, for our route clearance. And so, when we looked at 
this thing, the requirement came in for 2,500. We put the 
requirement into the 2007 budget, the main supplemental, and it 
did not stick, and some of it got pushed to the 2008.
    And right now, I believe, as we did the amendment, we have 
got $700-some-odd million in there for 700-some-odd vehicles. 
These vehicles cost about a million dollars.
    And then we put in a UFR, unfinanced requirement, for the 
other 2,000, of about $2.2 billion, that we sent to this 
committee.
    We are going to buy them as fast as we can, but right now 
what we are focused on is the FRAG Kit 5, which we are putting 
on. These are the doors and everything that our commanders have 
asked for.
    Mr. Taylor. General, I hate to interrupt, but I have a very 
short attention span, I am sorry to say. When you said ``did 
not stick,'' who did that not stick with? Office of Management 
and Budget (OMB)? The White House? The Secretary of Defense?
    Because I don't think I have heard this committee say that 
is a nonstarter, and we are the ones who fund those things 
under the constitutional provisions of the law.
    General Cody. We did not have a valid requirement except 
for 335 MRAP vehicles when the 2008 Title IV supplemental was 
being built. I don't have all the particulars, but we----
    Mr. Taylor. But, General, if I could. And believe me, I 
have enormous respect for you. I have enormous respect to 
everyone at that table. I have enormous respect for your sons 
who also served over there.
    But we are getting back to that word requirement. And I 
have pointed out three instances where somebody tried to fight 
this war on the cheap. And I guarantee you kids died needlessly 
and kids are lying up in Walter Reed needlessly because of body 
armor, because of Humvees and because of jammers.
    So the question is: Why do we go through this again? I 
mean, as you mentioned, this nation has a $13 trillion economy. 
We are finally admitting things that we should have been asking 
for last year and the year before that and the year before 
that.
    If this vehicle is going to save lives, if Humvees, as we 
now know, are vulnerable to mines and a hugely disproportionate 
number of casualties are occurring in Humvees because of mines 
and we have a way to address that, why don't we address it now?
    Because if the Marines are telling me every vehicle needs 
to be changed out, I have trouble visualizing that riding down 
the road that the Army's traveling looks a whole lot different 
than the road the Marines are traveling, or that the injuries 
sustained by a Marine are that much different from an injury 
sustained by a soldier.
    General Cody. We will buy the MRAP vehicles, and we have 
already bought many, as you know, in our route clearance. We 
will buy 2,500. We are with the Marines on this. They are the 
lead in terms of the procurement.
    We have asked for in the supplemental almost $1 billion for 
the initial buy of 700 to meet the 2,500. We have asked for 
more money in an unfinanced requirement in 2008 to buy out the 
2,500.
    These are costs off the shelf, the production line is set. 
The Marines will be getting the first tranche. We are finishing 
up the FRAG Kit 5. And then the Marines and the Army just 
finished having a captains of industry meeting with everybody 
to take a look at how many of these MRAPs can we buy, how fast 
can we buy them. But in stride with that, how quickly can we 
get to replacing the up-armored Humvee with the Joint Light 
Tactical Vehicle.
    And we just finished that, General Magnus and I had that 
meeting with the captains of industry. So I don't think we are 
being as slow and lethargic as your frustration shows.
    I want to get any vehicle out there as fast as I can to any 
soldier or any Marine so that they can safely move through and 
do the types of missions that they have.
    Right now, I think we are buying these things as fast as we 
can. We do have an unfinanced requirement for the total number. 
But I think if you gave us the money today, I still wouldn't 
get them any faster than what we have.
    Mr. Taylor. General, you touched on it. You did everything 
short of saying this nation is not taking this war seriously. 
So I will paraphrase it for you.
    I think this committee is taking this war seriously, and I 
think if you came to us and said, ``I need the legal authority 
to talk to our nation's automakers, particularly those who are 
shutting down plants anyway, to turn their production over to 
this type of vehicle so that kids don't die needlessly, so that 
kids don't get maimed needlessly,'' I think we would respond.
    But I think you also know that if it comes from this 
committee without the request of one of the services, then The 
Washington Post and the New York Times labels it pork. I don't 
think it is pork.
    I don't want to go to the last funeral of a kid who died in 
a Humvee for hitting a land mine or visit him repeatedly in the 
veterans' home if we can avoid that.
    And it troubles me that, again, one branch of the service 
is admitting that they need to replace every vehicle as quickly 
as possible, but the Army seems to be dragging their feet.
    And I really want to encourage you to take a second look at 
this. We are going to have the supplemental in the next couple 
of weeks, but we are also going to follow up in October. And if 
it means giving you the legal authority to walk into an 
automotive plant and say, ``Guess what, we are going to do 
something different than make Ford Rangers for the next couple 
weeks,'' then our nation needs to do that.
    We need your help on this. And I certainly have noticed a 
change in attitude with our new secretary of defense. I think 
he is a good enough man to say, ``Mistakes have been made,'' 
including himself, which I didn't see a lot with his 
predecessor.
    But this is something that absolutely has to be addressed.
    General Cody. Again, we are not dragging our feet. And the 
Marines have a different density; we have certainly a different 
problem set. What we have been focused on is getting this FRAG 
Kit 5 to the 15,000 vehicles, which are saving soldiers' lives.
    We do have a mine problem. That is why the Marines and the 
Army have looked at the MRAP. And, again, we have a $2.2 
billion UFR in our funding stream right now because our 
commanders asked for FRAG Kit 5. And that is what we focused 
on. That is the monies we had to get our FRAG Kit 5 out to 
15,000 vehicles that we will have done by April. And then we 
are buying these mine-resistant vehicles.
    And I know you are getting frustrated with me, but I am 
telling you that 2,500 of these vehicles will be hard to be 
able to get in the next 2 or 3 months. So we will buy as many 
as we can. At the same time, the Marines will buy as many as 
they want.
    But replacing 18,000 of them, we have to ask the question: 
Do we buy up to the 2,500 that our commanders have asked for in 
combat, coupled with their other tanks and Bradleys that they 
have over there, or do we buy 18,000 of them, which we probably 
wouldn't get for another 2 or 3 years?
    So it is something we are going to have to balance. I don't 
disagree with how good an MRAP is.
    Mr. Taylor. What does a FRAG Kit 5 do for you as far as a 
mine detonated below that vehicle?
    General Cody. Frag Kit 5 does not assist you with a deeply 
buried mine. It gives you a little bit more protection based 
upon that, but it is not as effective--what it does, too, is 
take care of the explosively formed penetrators and side blasts 
and gives the crew compartment much more survivability.
    Mr. Taylor. It is my understanding--you have been there; I 
just go from what I read--but it is my understanding that the 
enemy is well aware of the vulnerability of a blast from below; 
has now targeted our vehicles from below; and they talk to each 
other.
    I have got to believe, if it is happening in Iraq, it is 
going to be happening in Afghanistan pretty quickly. And again, 
General, I know you take this seriously. I know you take your 
efforts, the efforts of your sons and every one of the people 
that serve seriously. But I think the Army is making a tragic--
and I can't emphasize the word ``tragic'' enough--mistake in 
not asking for more of these vehicles.
    General Magnus, please.
    General Magnus. Congressman Taylor, I would like to join 
with my fellow warrior, General Cody.
    And I want to point out a fundamental problem that both of 
us have. General Cody talked about unfinanced requirements. We 
have stated a larger number because of the curious nature of 
our battlefield in Al Anbar. But the truth is the 3,700 MRAP 
vehicles that the Marine Corps currently requires and the 2,500 
vehicles that the Army currently requires, the total number is 
over 6,700, and that is aside from any numbers that Special 
Operations Command may want.
    We are $3.8-plus billion underfunded for that. And that 
number of 6,700 may grow in the future, but I don't want to see 
a production line shut down for the lack of money, because the 
country certainly has the money to send its sons and daughters 
to war.
    Because you and I both know, and I know the Congress knows, 
we really don't want to see them in the military treatment 
facility; we really don't want to see them in the veterans' 
homes. And war is what it is, but we can cut their casualties 
by perhaps as much as two-thirds with these vehicles.
    So as to whether or not there should be more than 6,700, I 
think the Army and the Marine Corps are united about the fact 
that we would like to have the unfinanced part of that, which 
is over $3.8 billion, financed.
    Mr. Taylor. To what extent, General, has that been 
expressed to the appropriators? And to what extent is that 
being addressed in the supplemental that we are going to be 
voting on in the next couple weeks?
    General Magnus. As General Cody had said earlier, we, as 
this rapidly evolving requirement over the past three months, 
we had notified the appropriate officials in our Departments of 
the Army and Department of the Navy. I know our friends in the 
Air Force and the Navy itself had separate requirements.
    Those were provided both up the requirements chain, as well 
as up the budgeting chain.
    Because of the timing of the 2007 supplemental, the 2008 
GWOT request, it turns out that only a small amount of money 
was placed in there. The 2007 supplemental request for the 
Marine Corps gave us $428 million. The 2008 GWOT request gave 
us another $91 million.
    Bottom line is, we are still $2.8 billion short, and, 
therefore, when we were requested if there were any unfinanced 
or unfunded programs, we sent the response back to Congressman 
Hunter, indicating that we were $2.8 billion, the Army $1 
billion short.
    So this has been known. It is a matter of timing, as to 
when the budgets were prepared and submitted to the Congress. 
But it is well-known throughout the Department, and I believe 
it has not been a secret as far as what our requirements are, 
and I believe the Army and the Marine Corps are united in that.
    Mr. Taylor. All right, General, just one last request.
    I hope you know that we had a hearing on this in the 
Seapower Committee about a month ago. I thought that the two 
generals who were representing the Marine Corps said that that 
program was fully funded. I am now hearing something different.
    So by way of clarification, since our markup is about a 
month away, I would very much appreciate a definitive statement 
on behalf of the Marine Corps as to what you need to fully fund 
this program.
    General Magnus. Sir, we will provide that for the record, 
sir.
    Mr. Taylor. Thank you very much.
    Mr. Ortiz. Thank you.
    I know that we have a position where some of these programs 
might not be funded. But if we are certain that this type of 
vehicle can save lives, we are willing to look at it and to see 
if we can, you know, put some more money, because they are our 
children and our daughters who are out there in harm's way.
    General Cody, and all of you now, when you consider your 
budget, do they consult with you as to what the needs are and 
what you need to include in your budget? I know that sometimes 
they place limitations, but does DOD consult with you as to 
what you need to put in there?
    Or sometimes I know, in many instances, not only in the 
Armed Services Committee, certain people tried to micromanage, 
you know, the funding because funding is very scarce.
    And I was just wondering whether you are consulted when you 
tried to put your budget together.
    General Cody. Chairman, we are. And we submit our budget 
line by line. I review it. I have a capable staff of three-
stars and two-stars and actually some colonels. And we go down 
line by line and we submit it.
    Then it goes through a review. If it is a supplemental like 
the 2007 supplemental, we have to go up and defend.
    I will tell you, in 2005, 2006 and 2007, we submitted a 
certain number. What was sent over here to Congress was less. 
And Congress always approved what came over.
    But what we sent through the system was more.
    Mr. Ortiz. Anybody else would like to make any comments?
    Go ahead.
    Mr. Taylor. General, to follow up on that, I would very 
much like to see the difference between what you, as a general 
in the Army, ask for and what the DOD actually sent over here 
by way of the previous request, as a follow-up to your previous 
statement.
    General Cody. Sure. I can do that for you, Congressman.
    Mr. Taylor. Either now or for the record, whatever is 
easier for you.
    General Cody. I will take it for the record because I want 
to make sure that, in the process, there is always a give and 
take. Well, that is too much, take it back. I want to make sure 
that we said, ``We need this much'' and then it was cut at a 
certain level based upon either OSD or OMB guidance. And then 
each year the chiefs are asked and the Secretary is asked, 
``Can you live with that?'' And everybody said, ``Based upon 
all the constraints, yes, we can live with that.''
    The problem is, and let me be clear, in 2005, 2006 and 
2007, everybody thought that the level of commitment in Iraq 
and Afghanistan was going to be moving downward.
    And so, as constraints were put in based upon projections 
of maybe not being at 15 brigades but coming down 5 brigades to 
10 brigades in 2006, 2007, some constraints were put in there 
saying, ``Well, you won't be there.''
    I think everybody has realized that that has not been true. 
And I think we are now at a situation where everybody is going 
to have to look at this thing and not forecast and budget for 
best case, but we need to be budgeting right now for worst 
case, because we have been executing worst case scenarios for 
the last three years.
    Mr. Taylor. And if I could, General, I would like to make 
the same request of all of you gentlemen, what you asked for 
and what you got in the previous four-year budgets.
    Thank you, Mr. Chairman.
    Mr. Ortiz. Do you have a question?
    Ms. Shea-Porter. I just have one quick question. Thank you.
    My question has to do with the helmets. I was told that we 
didn't have the proper helmets for the soldiers and there was a 
Web site dedicated to raising money from families for these 
helmets.
    Then I was told by a general recently, who was quite upset 
that I suggested we might not have the proper helmets, that all 
of the soldiers' helmets are the top grade, the best we can do 
to protect them from brain injuries.
    Do we or don't we have the best possible helmets for our 
troops? And for all the troops or some of the troops?
    General Cody. The helmet that we have now, the ACH, the 
Advanced Combat Helmet, we have tested several different ways. 
I directed a year and a half ago that our infantry center, as 
well as our surgeon general, look at the helmet, the new 
Advanced Combat Helmet, and the other helmet that we had, the 
Kevlar helmet.
    Both of them provided the maximum protection, as well as 
what the soldier needed for wearing of the night vision 
devices, as well as the hearing protection, as well as the 
ensemble of the kit that he wears to protect his neck and 
everything else.
    And so we have gone through and looked at the different 
types of battle injuries, and right now I can tell you that our 
people, the experts tell me that the helmet is the best that we 
have and we have enough of them for every soldier that is down 
range.
    Ms. Shea-Porter. So you can say with certainty that 100 
percent of the troops are using the most advanced helmet?
    General Cody. We may have soldiers that don't have the ACH, 
the Advanced Combat Helmet, but the protection of the regular 
Kevlar helmet is the same, it is just a different sizing.
    So we may have some combat support troops that are not 
going out on patrol--the ACH, the newer helmet, was designed 
for patrolling, and it gives you other access, in terms of 
wearing your kit, in terms of night-vision devices and stuff.
    So I can't accurately say that 100 percent have the 
Advanced Combat Helmet, but both the helmets they have have the 
same type of protection.
    Ms. Shea-Porter. Thank you.
    Mr. Ortiz. I have one question. And I had a chance to go 
visit national guard units and reserve units. And I was 
wondering whether the $50 billion for the national guard in the 
budget, do you think this is sufficient money to get them up 
its required readiness, or do you think that we need to add 
more money to the budget?
    General Cody. Mr. Chairman, I am not sure of that number 
that you just put out there. Is that for the procurement?
    Mr. Ortiz. That is $30 billion.
    General Cody. Okay, the $30 billion. We have looked at this 
in concert with the modularity. As you know, the national 
guard, in five years, footprint and types of unit is going to 
be different.
    And so, when we looked at the move-shoot-and-communicate 
equipping of the national guard and what they are going to look 
like in terms of the number of heavy brigades, light brigade 
combat teams, maneuver enhancement engineers and other types of 
artillery units and transportation units, we priced that out.
    And this gets them up to their equipment levels and fills 
all the holes, but also gets rid of the in-lieu-ofs, the M35 
deuce and a halves that are too old, that we need to get rid 
of, that we get rid of those in 2008, and get the new 
equipment. So the $30.2-something billion out through fiscal 
year 2013 fills all those holes with a modular Army National 
Guard.
    Mr. Ortiz. Because when I went to visit those units, it is 
very important, some of the equipment, as you well know, has 
been left behind.
    Then, when they come back to their units, they don't have 
the equipment to train. The governors were concerned in case of 
a disaster, if they don't have the equipment to respond, of 
course, they cannot respond; they don't have the equipment.
    So this is very, very important, that we equip the national 
guard as well.
    Does anybody else have any more questions?
    If not, this has been a very, very candid dialogue between 
us members and you, and this is what we needed to know so that 
we can try to help you.
    And again, thank you so much.
    And this meeting stands adjourned.
    [Whereupon, at 4:14 p.m., the subcommittee was adjourned.]


      
=======================================================================




                            A P P E N D I X

                             March 13, 2007

=======================================================================

      


      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 13, 2007

=======================================================================

      
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
=======================================================================


             QUESTIONS AND ANSWERS SUBMITTED FOR THE RECORD

                             March 13, 2007

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. TAYLOR

    Mr. Taylor. I would very much appreciate a definitive statement on 
behalf of the Marine Corps as to what you need to fully fund the MRAP 
program.
    General Magnus. To fully fund the USMC MRAP Program requirement, a 
total of 2.784B is required in FY08 broken out as follows:

2.372B Procurement
89M O&M
10M RDT&E

    The FY08 requirement includes completing the procurement of the 
USMC 3700 vehicles, Initial support for vehicles procured in FY08 and 
FY07, GFE for vehicles procured in FY08, Upgrade kits for all 3700 
vehicles, Shipment to theater for vehicles procured in FY08 and a 
majority of the FY07 procured vehicles, Sustainment for vehicles 
delivered in FY07/prior, and a small amount of RDT&E for Spiral 
development of vehicle upgrades. The FY09 requirement is currently 482M 
broken out as follows:

10M RDT&E
472M OMMC Sustainment

    Mr. Taylor. When you consider your budget, do they consult with you 
as to what the needs are and what you need to include in your budget? I 
know that sometimes they place limitations, but does DOD consult with 
you as to what you need to put in there? I would very much like to see 
the difference between what you, as a general in the Army, ask for and 
what the DOD actually sent over here by way of the previous request.
    General Cody. The table below displays the Army's combined base 
program request and supplemental request since FY03 in three columns: 
as submitted to the Office of the Secretary of Defense (Comptroller), 
as approved by OSD, and the Office of Management and Budget and as 
appropriated by the Congress.

         Army's Budget Request as Submitted to OSD from FY03--FY08 

  ($billion)           Army Request         OMB/OSD      Congressional 
Total Budget              to OSD            Position    Position (APPN)
------------------------------------------------------------------------
       FY 2003             135.6             115.6              115.2
       FY 2004             145.6             131.2              134.2
       FY 2005             168.3             155.4              159.5
       FY 2006             187.7             165.9              165.7
       FY 2007
     (Base and
          Title
      IX Only)             160.4             160.7              159.0
------------------------------------------------------------------------


    This table shows the amounts requested by the Army and subsequently 
approved by OSD/OMB for the FY07 Emergency Supplemental, FY08 Base 
budget and FY08 GWOT Request.

                                    Army Request to
    ($billion) Budget Request             OSD          OMB/OSD Position
------------------------------------------------------------------------
  FY 2007 Main                                 66.0                58.9
  Supplemental *
  FY 2008 Base **                             130.7               130.0
  FY 2008 GWOT
  Allowance ***                               105.1                92.1
------------------------------------------------------------------------

* -  Adds $12.2 billion for Afghanistan Security Force Fund (ASFF), 
Iraqi Security Forces Fund (ISFF), and the Joint IED Defeat 
Organization (JIEDDO) not included in the Army's request to OSD but 
submitted to Congress by OMB/OSD.
** -  Includes $7.7 billion for Grow the Army.
*** -  Adds $8.7 billion for ASFF, ISFF, and JIEDDO not included in the 
Army's request to OSD but submitted to Congress by OMB/OSD.

                                  <all>

</pre></body></html>
